                                                    U.S. DEPARTMENT OF
                                    HOUSING AND URBAN DEVELOPMENT
                                             OFFICE OF INSPECTOR GENERAL




                                                         March 8, 2013
                                                                                                  MEMORANDUM NO:
                                                                                                       2013-PH-1802

Memorandum
TO:              Dane M. Narode
                 Associate General Counsel for Program Enforcement, CACC

                 //signed//
FROM:            John P. Buck
                 Regional Inspector General for Audit, Philadelphia Region, 3AGA

SUBJECT:         New Day Financial, LLC, Fulton, MD, Ensured Loans Met FHA Requirements


                                                INTRODUCTION

We reviewed 32 Federal Housing Administration (FHA) loans that New Day Financial, LLC,
underwrote as a U.S. Department of Housing and Urban Development (HUD) FHA direct
endorsement lender. Our objective was to determine whether New Day underwrote the loans in
accordance with FHA requirements and if not, whether the underwriting reflected systemic
problems. We conducted the review as a result of a risk model assessment that identified
mortgage lenders that were at high risk to cause losses to the FHA insurance fund. New Day
was one of the lenders identified that made insurance claims within the first 2 years of insurance
endorsement and underwrote loans that went into default within the first 90 days of endorsement.

                                    METHODOLOGY AND SCOPE

We performed our work from October 2011 through November 2012. The audit covered the
period December 2007 through December 2009. To accomplish our objective, we reviewed
applicable HUD handbooks, mortgagee letters, and reports from HUD’s Quality Assurance
Division. We obtained a download from HUD’s Neighborhood Watch 1 system. We identified
39 loans that went into default within the first 6 to 24 months of endorsement. All 39 loans were
refinance transactions, with the majority being cash-out refinances for debt consolidation.
Initially, we selected and reviewed the 10 loans with the largest mortgage amount. The original
mortgage amounts of these 10 loans totaled $2.5 million. We initially determined that 3 2 of the

1
  Neighborhood Watch is a system that aids HUD FHA staff in monitoring lenders and FHA programs. This system
allows staff to oversee lender origination activities for FHA-insured loans and tracks mortgage defaults and claims.
2
  New Day later provided documents to resolve issues with all 3 loans.
                                                          Office of Audit Region 3
                                                   The Wanamaker Building, Suite 10205
                                            100 Penn Square East, Philadelphia, PA 19107-3380
                                    Visit the Office of Inspector General Web site at www.hudoig.gov.
10 loans had material underwriting deficiencies and we reported our results to New Day in a
discussion draft report on July 3, 2012. After that date, at the request of the Assistant United
States Attorney, we expanded our review. Although we planned to review all of the other 29
loans, we reviewed only 22 of them because we determined that based on our review of the 32
loans with the largest mortgages totaling $5.9 million, there was a low likelihood of us
identifying material deficiencies in the remaining loans. 3 This audit memorandum addresses the
results of our review of the 32 loans.

We conducted our work in accordance with generally accepted government auditing standards
except that we expanded our review at the request of the Assistant United States Attorney, after
we issued the discussion draft report to New Day on July 3, 2012. As a result, we did not
communicate the results from the expanded review to New Day in advance. To meet our
objective, it was not necessary to fully comply with the standards, and our approach did not
negatively affect our results.

                                            BACKGROUND

New Day Financial, LLC, doing business as New Day USA, is a HUD-approved nonsupervised
direct endorsement lender. The lender was first approved to participate in the FHA program on
September 26, 2007. A nonsupervised lender is a financial entity that has as its principal activity
the lending or investing of funds in real estate mortgages. The direct endorsement program
simplified the process for obtaining FHA mortgage insurance by allowing lenders to underwrite
and close mortgage loans without prior HUD review or approval. Lenders are responsible for
complying with all applicable HUD regulations and are required to evaluate the borrower’s
ability and willingness to repay the mortgage debt. Lenders are protected against default by
FHA’s Mutual Mortgage Insurance Fund 4, which is sustained by borrower premiums. FHA’s
mortgage insurance programs help low- and moderate-income families become homeowners by
lowering some of the costs of their mortgage loans. FHA mortgage insurance also encourages
lenders to approve mortgages for otherwise creditworthy borrowers and projects that might not
be able to meet conventional underwriting requirements by protecting the lender against default.

New Day’s headquarters is located at 8171 Maple Lawn Boulevard, Suite 300, Fulton, MD. The
lender has three nontraditional branch offices located in Delaware, California, and Illinois. The
nontraditional branch offices serve as call centers. New Day did not service the loans it
originated; rather, it sold its loans to other companies. Between 2008 and 2009, New Day
endorsed 8,804 loans valued at more than $1.4 billion. We selected 32 loans that went into early
default and claims were paid.

The objective of our review was to determine whether New Day underwrote loans in accordance
with FHA requirements and if not, whether the underwriting reflected systemic problems.



3
  From the sample of 22 loans, we identified underwriting issues with 1 loan.
4
  The Mutual Mortgage Insurance Fund is a fund that insures mortgages made by FHA on single-family homes. The
fund pays the lender if the mortgagor defaults.




                                                     2
                                          RESULTS OF REVIEW

New Day underwrote 31 of the 32 refinanced loans we reviewed in accordance with FHA
requirements. The one loan with underwriting deficiencies had an original mortgage amount
totaling $192,850 and was refinanced as a cash-out refinance debt consolidation loan. HUD
considers these loans to represent considerable risk. 5 The FHA insurance fund suffered actual
losses of $99,502 on the one loan.

For loan number 105-3334436, the underwriter included income from the co-borrower that was
not adequately verified. The co-borrower of the loan reported that she received $1,067 in
monthly Social Security benefits. The underwriter did not require the borrower to provide an
award letter from the Social Security Administration or a copy of a Federal tax return to
demonstrate the income received. The underwriter only required the co-borrower to provide a
copy of one month’s bank statement to demonstrate monthly deposits of $1,067. HUD
Handbook 4155.1, REV-5, paragraph 2-7(E), requires that Social Security income must be
verified from the source or Federal tax returns and if the benefits expire within the first full 3
years, the income can be used only as a compensating factor. Section 2 of the handbook also
requires that income may not be used in calculating the borrower’s income ratios if it comes
from a source that cannot be verified, is not stable, or will not continue. We recalculated the
debt-to-income ratios 6, excluding the income that was not verified. The recalculated total fixed
payment-to-income ratio increased from 42 to 52 percent. HUD Mortgagee Letter 2005-16,
requires that for manually underwritten mortgages where the direct endorsement underwriter
made the credit decision, the total fixed payment-to-income ratio should not exceed 43 percent.
If a qualifying ratio exceeds a HUD standard ratio, then compensating factors were needed to
justify the approval of the loan. For this loan, the underwriter used the reduction in the housing
payment as a compensating factor for the higher total fixed payment-to-income ratio however,
HUD does not consider this an acceptable compensating factor. This problem did not appear to
be systemic and after further review of additional information and documentation provided by
the lender after the audit we determined that there was insufficient cause to pursue remedies
under the Program Fraud Civil Remedies Act.

                                          RECOMMENDATIONS

This report contains no recommendations.




5
  HUD Handbook 4155, REV-5, paragraph 1-11(B), states that cash-out refinances for debt consolidation represent
considerable risk, especially if the borrowers have not had a related increase in income. Such transactions must be
carefully evaluated.
6
  There are two debt-to-income ratios: a mortgage payment-to-income ratio (front end ratio) and a total fixed
payment-to-income ratio (back end ratio).



                                                         3
Appendix

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation         Auditee Comments




Comment 1




                          4
Comment 1




Comment 1




            5
Comment 1




Comment 2




            6
Comment 2




            7
Comment 1




Comment 1




            8
Comment 1




            9
                         OIG Evaluation of Auditee Comments

Comment 1   After further review of additional information and documentation provided by the
            lender after the audit we revised the report. We now agree that there is insufficient
            cause to pursue remedies under the Program Fraud Civil Remedies Act; thus the
            final audit memorandum does not include any recommendations. In accordance
            with our standard reporting process however, this final audit memorandum
            includes the lender’s written reply to the discussion draft memorandum report.

Comment 2   For loan number 105-3334436, the lender agrees that the loan file did not contain
            the required income verification documentation. HUD Handbook 4155.1, REV-5,
            paragraph 2-7 E, states that Social Security income must be verified from the
            source. Section 2 of the handbook also states that income may not be used in
            calculating the ratios if it comes from a source that cannot be verified, is not
            stable, or will not continue. However, this problem did not appear to be systemic
            and after further review of additional information and documentation provided by
            the lender after the audit we agree that there is insufficient cause to pursue remedies
            under the Program Fraud Civil Remedies Act for this isolated discrepancy.




                                              10
